<html>
<title> - STEM EDUCATION: INDUSTRY AND PHILANTHROPIC INITIATIVES</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]







         STEM EDUCATION: INDUSTRY AND PHILANTHROPIC INITIATIVES

=======================================================================

                                HEARING

                               BEFORE THE

                        SUBCOMMITTEE ON RESEARCH

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                       WEDNESDAY, MARCH 13, 2013

                               __________

                           Serial No. 113-11

                               __________

 Printed for the use of the Committee on Science, Space, and Technology






[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



       Available via the World Wide Web: http://science.house.gov



                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

79-930PDF                 WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
DANA ROHRABACHER, California         EDDIE BERNICE JOHNSON, Texas
RALPH M. HALL, Texas                 ZOE LOFGREN, California
F. JAMES SENSENBRENNER, JR.,         DANIEL LIPINSKI, Illinois
    Wisconsin                        DONNA F. EDWARDS, Maryland
FRANK D. LUCAS, Oklahoma             FREDERICA S. WILSON, Florida
RANDY NEUGEBAUER, Texas              SUZANNE BONAMICI, Oregon
MICHAEL T. McCAUL, Texas             ERIC SWALWELL, California
PAUL C. BROUN, Georgia               DAN MAFFEI, New York
STEVEN M. PALAZZO, Mississippi       ALAN GRAYSON, Florida
MO BROOKS, Alabama                   JOSEPH KENNEDY III, Massachusetts
RANDY HULTGREN, Illinois             SCOTT PETERS, California
LARRY BUCSHON, Indiana               DEREK KILMER, Washington
STEVE STOCKMAN, Texas                AMI BERA, California
BILL POSEY, Florida                  ELIZABETH ESTY, Connecticut
CYNTHIA LUMMIS, Wyoming              MARC VEASEY, Texas
DAVID SCHWEIKERT, Arizona            JULIA BROWNLEY, California
THOMAS MASSIE, Kentucky              MARK TAKANO, California
KEVIN CRAMER, North Dakota           VACANCY
JIM BRIDENSTINE, Oklahoma
RANDY WEBER, Texas
CHRIS STEWART, Utah
VACANCY
                                 ------                                

                        Subcommittee on Research

                   HON. LARRY BUCSHON, Indiana, Chair
STEVEN M. PALAZZO, Mississippi       DANIEL LIPINSKI, Illinois
MO BROOKS, Alabama                   ZOE LOFGREN, California
STEVE STOCKMAN, Texas                AMI BERA, California
CYNTHIA LUMMIS, Wyoming              ELIZABETH ESTY, Connecticut
JIM BRIDENSTINE, Oklahoma            EDDIE BERNICE JOHNSON, Texas
LAMAR S. SMITH, Texas
                            C O N T E N T S

                       Wednesday, March 13, 2013

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Larry Bucshon, Chairman, Subcommittee 
  on Research, Committee on Science, Space, and Technology, U.S. 
  House of Representatives.......................................     6
    Written Statement............................................     7

Statement by Representative Daniel Lipinski, Ranking Minority 
  Member, Subcommittee on Research, Committee on Science, Space, 
  and Technology, U.S. House of Representatives..................     7
    Written Statement............................................     9

Statement by Representative Lamar S. Smith, Chairman, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................    10
    Written Statement............................................    11

                               Witnesses:

Ms. Shelly Esque, President, Intel Foundation; Vice President, 
  Legal and Corporate Affairs; and Director, Corporate Affairs 
  Group, Intel Corporation
    Oral Statement...............................................    12
    Written Statement............................................    15

Dr. Bob Smith, Vice President and Chief Technology Officer, 
  Engineering and Technology, Honeywell Aerospace
    Oral Statement...............................................    26
    Written Statement............................................    28

Dr. Vince Bertram, President and Chief Executive Officer, Project 
  Lead the Way
    Oral Statement...............................................    36
    Written Statement............................................    38

Ms. Andrea Ingram, Vice President of Education and Guest 
  Services, Museum of Science and Industry
    Oral Statement...............................................    45
    Written Statement............................................    47

Discussion.......................................................    56

             Appendix I: Answers to Post-Hearing Questions

Ms. Shelly Esque, President, Intel Foundation; Vice President, 
  Legal and Corporate Affairs; and Director, Corporate Affairs 
  Group, Intel Corporation.......................................    72

Dr. Bob Smith, Vice President and Chief Technology Officer, 
  Engineering and Technology, Honeywell Aerospace................    74

Dr. Vince Bertram, President and Chief Executive Officer, Project 
  Lead the Way...................................................    76

 
         STEM EDUCATION: INDUSTRY AND PHILANTHROPIC INITIATIVES

                              ----------                              


                       WEDNESDAY, MARCH 13, 2013

                  House of Representatives,
                                   Subcommittee on Research
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittee met, pursuant to call, at 10:05 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Larry 
Bucshon [Chairman of the Subcommittee] presiding.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Chairman Bucshon. The Subcommittee on Research will come to 
order. Good morning, everyone. Welcome to today's hearing 
entitled ``STEM Education: Industry and Philanthropic 
Initiatives.'' In front of you are packets containing the 
written testimony, biographies, and truth-in-testimony 
disclosures for today's witness panel.
    I recognize myself for five minutes for an opening 
statement.
    Again, good morning. I want to welcome everyone to today's 
Research Subcommittee hearing on the role of industry and 
philanthropic efforts relating to science, technology, 
engineering and math, or as we call it, STEM education.
    As a cardiothoracic surgeon and father, I understand that 
STEM programs and initiatives are very important. I believe 
STEM education is an essential element in America's economic 
growth and competitiveness. According to the National Science 
Board's 2012 Science and Engineering Indicators, over the past 
25 years the science and engineering workforce has more than 
doubled in size and currently represents over four percent of 
all U.S. jobs. And job losses from the 2007 to 2009 recession 
have been relatively less severe for those in science and 
engineering-related jobs compared to the rest of the U.S. 
workforce.
    The Federal Government spends over $3 billion per year 
across 13 Federal agencies on STEM initiatives and projects. A 
GAO report completed in January of 2012 concluded a need for a 
strategic planning to better manage the overlap of Federal STEM 
programs. GAO suggested the Office of Science and Technology 
Policy should work with agencies and produce a government-wide 
strategy for STEM initiatives that ensures efficiency and 
eliminates duplication and ineffective programs. ``The America 
COMPETES Reauthorization Act of 2010'' required the National 
Science and Technology Council's Committee on STEM to develop 
and implement a five-year STEM education strategic plan to 
specify and prioritize annual and long-term objectives and 
describe the role of each Federal agency supporting STEM 
programs and activities.
    My hope is that this strategic plan will benefit the 
overall success of Federal STEM initiatives, education, and 
development. However, as we consider Federal supports for STEM 
education we must also recognize the importance of private 
sector and non-profit collaborations to STEM education. As we 
move forward with COMPETES reauthorization, we can draw on the 
expertise of industry and philanthropic initiatives to ensure 
taxpayer dollars are not duplicating efforts and are being used 
in the most efficient and effective manner.
    Our witnesses today offer the insight of their industry and 
philanthropic contributions to STEM education. These 
organizations work with students in K-12 education as well as 
undergraduate and graduate students. They also work with STEM 
teachers and mentors and offer tools for STEM classrooms. I 
would like to thank all of our witnesses for their time and 
offering us insight into the private sector-STEM relationship. 
I look forward to hearing about your work.
    [The prepared statement of Mr. Bucshon follows:]

 Prepared Statement of Subcommittee on Research Chairman Larry Bucshon

    Good Morning. I want to welcome everyone to today's Research 
Subcommittee hearing on the role of industry and philanthropic efforts 
relating to science, technology, engineering and math, or STEM, 
education.
    As a cardiothoracic surgeon and father, I understand that STEM 
programs and initiatives are important. I believe STEM education is an 
essential element in America's economic growth and competitiveness. 
According to the National Science Board's 2012 Science and Engineering 
Indicators, over the past twenty-five years the science and engineering 
workforce has more than doubled in size and currently represents over 
four percent of all U.S. jobs. And job losses from the 2007 to 2009 
recession have been relatively less severe for those in science and 
engineering related jobs compared to the U.S. workforce overall.
    The federal government spends over three billion dollars per year 
across 13 federal agencies on STEM initiatives and projects. A GAO 
report completed in January of 2012 concluded a need for strategic 
planning to better manage the overlap of federal STEM programs. GAO 
suggested the Office of Science and Technology Policy should work with 
agencies and produce a government wide strategy for STEM initiatives 
that ensures efficiency and eliminates duplication and ineffective 
programs. ``The America COMPETES Reauthorization Act of 2010'' required 
the National Science and Technology Council's Committee on STEM to 
develop and implement a five-year STEM education strategic plan to 
specify and prioritize annual and long-term objectives and describe the 
role of each federal agency supporting STEM programs and activities.
    My hope is that this strategic plan will benefit the overall 
success of federal STEM initiatives, education and development. 
However, as we consider federal support for STEM education we must also 
recognize the importance of private sector and non-profit 
collaborations to STEM education. As we move forward with COMPETES 
reauthorization, we can draw on the expertise of industry and 
philanthropic initiatives to ensure taxpayer dollars are not 
duplicating efforts and are being used in the most efficient and 
effective manner.
    Our witnesses today offer the insight of their industry and 
philanthropic contributions to STEM education. These organizations work 
with students in K-12 education as well undergraduate and graduate 
students, they also work with STEM teachers and mentors, and offer 
tools for STEM classrooms. I would like to thank all of our witnesses 
for their time and offering us insight into the private sector-STEM 
relationship. I look forward to hearing about their work.

    Chairman Bucshon. At this point I will now recognize the 
Ranking Member, the gentleman from Illinois, Mr. Lipinski, for 
an opening statement.
    Mr. Lipinski. Thank you, Chairman Bucshon. Keeping up your 
reputation of the hardest-working Chairman in Washington with 
our fourth hearing in four weeks, so very impressive. It is a 
very important issue that we are dealing with today, and I want 
to thank you and I want to thank Chairman Smith for pushing 
this issue, bringing this issue forward because I think it is 
one of the most important issues that we are facing today.
    One of the reasons I joined this Committee is because of my 
strong interest in working to improve STEM education. I have 
also served as Co-Chair of the House STEM Ed Caucus for the 
past four years, so I am glad that we are not only having this 
hearing but having it early here in this Congress.
    As a former engineer and with a wife who is an actuary with 
a math major degree in math from college, I can personally 
vouch for the importance of educating our students in the STEM 
fields at all levels.
    We are all familiar with the statistics by now. According 
to the 2011 TIMSS study U.S. students in fourth grade rank 
behind students in ten other countries in science aptitude and 
15 other countries in math, and students fall further behind as 
they proceed to high school. This has serious consequences for 
individuals and for our Nation's economy.
    For example, while we still face unacceptably high 
unemployment, many employers are unable to find qualified 
workers. I have heard from many manufacturers that they are 
having a difficult time finding workers who have basic STEM 
knowledge, and students who aren't learning the necessary 
skills by the time they graduate high school are much less 
likely to pursue STEM fields if they go to college, 
constraining our workforce even further. And with fewer 
Americans in STEM fields, especially fewer Ph.D.s, American 
innovation is suffering, further hurting economic development.
    We know that improving STEM education is complex problem 
with no easy or one-size-fits-all solution. Therefore, we all 
must work together: the private sector, non-profits, colleges 
and universities, school districts, and local, state, and 
Federal Governments to find solutions that fit specific needs. 
If the U.S. wants to remain the global leader in innovation and 
technology, we have to tackle these challenges with an all-
hands-on-deck approach.
    Today's hearing focuses on corporate and non-profit 
organization STEM initiatives. U.S. companies are realizing 
more and more how critical it is to their long-term success 
that we have a robust, high-tech workforce. Meanwhile, 
foundations and other non-profits are increasingly leveraging 
their resources and expertise in this area as the problems 
grow.
    I am very excited to see how much the private sector has 
stepped forward on these issues in the last few years, and I 
look forward to hearing about the efforts of the companies and 
organizations represented here today.
    One of those organizations is the Museum of Science and 
Industry in Chicago. I have to say it was one of the places, 
one of the most important places for helping to re-stoke my 
interest in science and math and engineering and, you know, 
really encouraged me to--when I was going to getting my 
engineering degrees.
    But today I also want to talk about the Federal role in 
this partnership and in particular the role of the National 
Science Foundation, which the Subcommittee has jurisdiction 
over. NSF is one of the most important sources of funding for 
education research. Industry rightly wants to put their money 
into proven programs. For that to happen somebody has to 
provide the funding to develop and prove out those programs. 
NSF grants allow education researchers and organizations to 
test out and evaluate new ideas and to improve our 
understanding of how people learn and what effective pedagogy 
means.
    Much of what we know and use in STEM education today 
started out with NSF funding. Unfortunately, our Federal 
investments in STEM education, including at NSF, have stagnated 
and are even being questioned. This is not a good strategy for 
educating and training our next generation of STEM workers and 
strengthening American competitiveness. We must continue to 
address this challenge, so I hope this first hearing on STEM 
education is one of many during this Congress and that future 
hearings will look at the role of other stakeholders, including 
the Federal Government.
    U.S. researchers and universities which attract top-notch 
students from many nations remain the best in the world; 
however, we can't take this leadership for granted. As other 
countries take bold steps to match and surpass our progress, we 
must all work together so the U.S. remains the most innovative 
country in the world.
    I look forward to working with all my colleagues to ensure 
that we are doing our part. I thank Chairman Bucshon again for 
calling this hearing, the witnesses for taking the time to be 
here, and I yield back my time.
    [The prepared statement of Mr. Lipinski follows:]

     Prepared Statement of Ranking Minority Member Daniel Lipinski
    Thank you, Chairman Bucshon, and thank you to all of the witnesses 
for being here today.
    One of the reasons I joined this Committee is because of my strong 
interest in working to improve STEM education. I have also served as 
co-chair of the House STEM Education Caucus for the past four years, so 
I'm glad we're having this hearing and that we are doing it early in 
the new Congress. As a former engineer, I can personally vouch for the 
importance of educating our students at all levels in STEM fields.
    We're all familiar with the statistics by now. According to the 
2011 TIMSS study, U.S. students in 4th grade rank behind students in 10 
other countries in science aptitude and 15 other countries in math, and 
students fall further behind as they proceed to high school. This has 
serious consequences for individuals and for our nation's economy. For 
example, while we still face unacceptably high unemployment, many 
employers are unable to find qualified workers. I have heard from many 
manufacturers that they are having a difficult time finding workers who 
have basic STEM knowledge. And students who aren't learning the 
necessary skills by the time they graduate high school are much less 
likely to pursue STEM fields if they go to college, constraining our 
workforce even further. And with fewer Americans in STEM fields, 
especially fewer PhDs, American innovation is suffering, further 
hurting economic development.
    We know that improving STEM education is a complex problem with no 
easy or one-size-fits-all solution. Therefore, we all must work 
together--the private sector, nonprofits, colleges and universities, 
school districts, and local, state, and federal governments--to find 
solutions that fit specific needs. If the U.S. wants to remain the 
global leader in innovation and technology, we have to tackle these 
challenges with an ``all hands on deck'' approach.
    Today's hearing focuses on corporate and nonprofit organization 
STEM initiatives. U.S. companies are realizing more and more how 
critical it is to their long-term success that we have a robust high-
tech workforce. Meanwhile, foundations and other nonprofits are 
increasingly leveraging their resources and expertise in this area as 
the problems grow. I'm very excited to see how much the private sector 
has stepped up on these issues in the last few years, and I look 
forward to hearing about the efforts of the companies and organizations 
represented here today. But I also want to talk about the federal role 
in this partnership and in particular, the role of the National Science 
Foundation.
    NSF is one of the most important sources of funding for education 
research. Industry rightly wants to put their money into proven 
programs. For that to happen, somebody has to provide the funding to 
develop and prove out those programs. NSF grants allow education 
researchers and organizations to test out and evaluate new ideas, and 
to improve our understanding of how people learn and what effective 
pedagogy really means. Much of what we know and use in STEM education 
today started out with NSF funding.
    Unfortunately, our Federal investments in STEM education, including 
at NSF, have stagnated and are even being questioned. This is not a 
good strategy for educating and training our next generation of STEM 
workers and strengthening American competitiveness. We must continue to 
address this challenge, so I hope this first hearing on STEM education 
is one of many during this Congress, and that future hearings will look 
at the role of other stakeholders, including the Federal Government.
    U.S. researchers and universities--which attract top-notch students 
from many nations--remain the best in the world. However, we can't take 
this leadership for granted. As other countries take bold steps to 
match and surpass our progress, we must all work together so that the 
U.S. remains the most innovative country in the world. I look forward 
to working with all my colleagues to ensure that we are doing our part.
    I want to thank Chairman Bucshon again for calling this hearing, 
and the witnesses as well for taking the time to offer their insights 
today. And with that, I yield back.

    Chairman Bucshon. Thank you, Mr. Lipinski.
    The Chairman of the Full Committee is here with us today, 
and I recognize him for five minutes for an opening statement.
    Chairman Smith of Texas. Thank you, Mr. Chairman. I 
appreciated your opening statement, and I also want to thank 
the Ranking Member for his comments as well. I checked, and the 
Ranking Member is correct. This is the most active Subcommittee 
of the Science Committee, and it is likely the most active 
Committee in all of Congress. So congratulations to you all.
    However, now that that has been made public and knowing how 
competitive the other Subcommittee Chairs are, they may try to 
gain on you, but congratulations on the record.
    Mr. Chairman, since our founding, American innovators have 
played an important role in our Nation's growth and prosperity. 
Some of the most prominent people in American history were also 
our nation's greatest inventors.
    From Benjamin Franklin and Thomas Edison to the Wright 
brothers and Henry Ford, American inventors have led the world 
in innovations for centuries.
    But in order to achieve the innovations of tomorrow, we 
must better educate American students today. We need to empower 
students with the tools they need to succeed and ensure young 
adults have the scientific and mathematic literacy to thrive in 
a technology-based economy.
    America lags behind other nations when it comes to science, 
technology, engineering, and math education. American students 
rank 23rd in math and 31st in science. This is not the record 
of a great country, and it is not the record of a country that 
expects to remain a world leader.
    We have to invest in STEM education if we want to remain 
globally competitive in the 21st century. Currently, the 
Federal Government spends about $3 billion on STEM education 
activities each year. These programs are found primarily in the 
National Science Foundation and the Department of Education but 
can be in every agency under this Committee's jurisdiction.
    Our witnesses today represent organizations that have 
identified the need to strengthen our workforce by investing in 
STEM education. They are organizations that are working to 
promote STEM education and inspire our next generation of 
scientists, engineers, entrepreneurs, and leaders.
    Today we will learn what is taking place outside of the 
Federal Government so we can be sure we are not spending 
taxpayer dollars on duplicative programs and that we are 
effectively focusing the resources we do have.
    A well-educated and trained STEM workforce undergirds our 
future economic prosperity, but we have to capture and hold the 
desire of our Nation's youth to study science and engineering 
so they will want to pursue these careers. Mr. Chairman, I look 
forward to the hearing about the STEM initiatives and look 
forward to the comments of our witnesses as well and yield 
back.
    [The prepared statement of Mr. Smith of Texas follows:]

               Prepared Statement of Chairman Lamar Smith
    Since our founding, American innovators have played an important 
role in our nation's growth and prosperity. Some of the most prominent 
people in American history were also our nation's greatest inventors.
    From Benjamin Franklin and Thomas Edison to the Wright brothers and 
Henry Ford, American inventors have led the world in innovations for 
centuries.
    But in order to achieve the innovations of tomorrow, we must better 
educate American students today. We need to empower students with the 
tools they need to succeed and ensure young adults have the scientific 
and mathematic literacy to thrive in a technology-based economy.
    America lags behind other nations when it comes to science, 
technology, engineering and mathematics (STEM) education. American 
students rank 23rd in math and 31st in science. This is not the record 
of a great country. And it is not the record of a country that expects 
to remain a world leader.
    We have to invest in STEM education if we want to remain globally 
competitive in the 21st Century. Currently, the federal government 
spends about $3 billion dollars on STEM education activities each year. 
These programs are found primarily at the National Science Foundation 
and the Department of Education, but can be in every agency under this 
Committee's jurisdiction.
    Our witnesses today represent organizations that have identified 
the need to strengthen our workforce by investing in STEM education.
    They are organizations that are working to promote STEM education 
and inspire our next generation of scientists, engineers, entrepreneurs 
and leaders.
    Today we will learn what is taking place outside of the federal 
government so we can be sure we are not spending taxpayer dollars on 
duplicative programs and that we are effectively focusing the resources 
we do have.
    A well-educated and trained STEM workforce undergirds our future 
economic prosperity. But we have to capture and hold the desire of our 
nation's youth to study science and engineering so they will want to 
pursue these careers. I look forward to hearing about the STEM 
initiatives our witnesses have taken.

    Chairman Bucshon. Thank you, Mr. Chairman. If there are 
Members who wish to submit additional opening statements, your 
statements will be added to record at this point.
    At this time I would like to introduce our witnesses.
    Our first witness is Ms. Shelly Esque, the Vice President 
of Legal and Corporate Affairs, Director of the Corporate 
Affairs Group, and the President of the Intel Foundation at the 
Intel Corporation. Prior to being at Intel Ms. Esque served as 
Public Affairs Director for the Clerk of the Superior Court in 
Maricopa County, Arizona. She received her Bachelor's Degree in 
communications from Arizona State University's College of 
Public Programs.
    Our next witness is Dr. Bob Smith, the Vice President and 
Chief Technology Officer of Engineering and Technology at 
Honeywell Aerospace. Dr. Smith is a Fellow of the Royal 
Aeronautic Society, Associate Fellow of the American Institute 
of Aeronautics and Astronautics, and current President of the 
International Society of Air-Breathing Engines, whatever that 
means. Versus non-air-breathing engines. In addition, he has 
received the SAE Aerospace Engineering Leadership Award and 
NASA's Silver Snoopy and Spaceflight Awareness Awards. He has 
advanced degrees in engineering and applied mathematics from 
Brown University and the Massachusetts Institute of Technology 
Sloan School of Management, as well as a doctorate in aerospace 
engineering from the University of Texas.
    Our third witness is Dr. Vince Bertram from Indiana, where 
I am from. The President and Chief Executive Officer of Project 
Lead the Way. Prior to joining Project Lead the Way Dr. Bertram 
was Superintendent of the Evansville Vanderburgh School 
Corporation in my district, and in 2010, Governor Mitch Daniels 
named Dr. Bertram a distinguish Hoosier, one of Indiana's 
highest awards. Dr. Bertram earned his Doctorate, Specialist, 
Master, and Bachelor degrees from Ball State University, a 
Master's in Education and Policy Management from Harvard 
University, an Executive Certificate in Strategy and Innovation 
from the MIT Sloan School of Management, and is an alumnus of 
the Chicago Management Institute at the University of Chicago's 
Booth School of Business. Welcome. I hope I got that right.
    Our fourth and final witness is Ms. Andrea Ingram, the Vice 
President of Education and Guest Services at the Museum of 
Science and Industry in Chicago, and I grew up in Illinois, so 
your coal mine exhibit was something I saw when I was a kid. My 
dad was a coalminer. Prior to joining the museum, Ms. Ingram 
has been active in a variety of public and private 
organizations focused on children's causes. Ms. Ingram holds a 
JD from the University of California, Davis and a BA in Justice 
from the American University here in Washington, DC. She is 
licensed to practice law both in Illinois and California.
    Welcome to all of our witnesses. It is great to have you 
here.
    I will just remind you about the testimony. Our witnesses 
should know spoken testimony is limited to five minutes after 
which the Members of the Committee will have five minutes each 
to ask questions.
    I now recognize Ms. Esque to present her testimony.

           TESTIMONY OF MS. SHELLY ESQUE, PRESIDENT,

               INTEL FOUNDATION; VICE PRESIDENT,

                  LEGAL AND CORPORATE AFFAIRS;

             AND DIRECTOR, CORPORATE AFFAIRS GROUP,

                       INTEL CORPORATION

    Ms. Esque. Thank you, and good morning, Chairman Bucshon, 
Representative Lipinski, and Members of the Committee. I really 
appreciate this opportunity to speak about the importance of 
STEM education to our Nation and to Intel Corporation. I am 
Shelly Esque, Vice President of Intel Corporate Affairs and 
President of the Intel Foundation.
    Today I will focus on three topics: the importance of 
highly-skilled workforce to Intel's technology development, 
manufacturing, research, investment in the United States; the 
role of STEM education in fostering innovation; and finally 
Intel's education programs and partnerships to create the 
workforce we need and to foster innovation.
    Intel is the world's largest semiconductor manufacturer. We 
employ 105,000 people worldwide. More than half of them, 
53,000, are here in the United States, and at a time when the 
Nation is calling for a revival of manufacturing, we are very 
proud that Intel has invested three-quarters of our investments 
in manufacturing and research in the United States.
    Intel is an economic engine for the Nation, and the fuel 
for that engine is our highly-skilled technical workforce. We 
understand the importance of STEM skills because these are the 
skills we seek each day as we hire the best and brightest 
engineers and scientists. They design the technology of the 
future, they run our factories, and conduct our research. 
Through our education initiatives and investments, Intel is 
helping to build community capacity for this pipeline of 
workers and also preparing the next generation of innovators 
and consumers.
    Education has been Intel's primary philanthropic focus for 
decades. I would like to share with you three of Intel's 
programs to demonstrate our commitment to STEM.
    First is the Intel Science Talent Search, which we 
concluded last night here in Washington, which is why I don't 
have a voice this morning. It is America's oldest and most 
prestigious pre-college science competition. Alumni of Intel 
STS have made extraordinary contributions to science including 
seven Nobel Prizes, three National Medals of Science, and last 
evening Ms. Sarah Bowles from Colorado Springs was selected to 
receive the $100,000 grand prize. Her project focuses on 
economic-viable algae, turning that into a biofuel, and she did 
share with us last evening that she grows her algae under her 
bed and sleeps on the schedule of the algae.
    In addition, we have the International Science and 
Engineering Fair. Intel ISEF is the world's largest pre-college 
science competition, bringing together more than 1,500 young 
scientists from 50 countries. Last year's winner of Intel ISEF, 
Jack Andraka, from Crownsville, Maryland, was only 15 when he 
discovered a new way to detect pancreatic cancer using a slip 
of paper and a drop of blood. The implication of his research 
on early detection of a variety of cancers is breathtaking, and 
he is just getting started--just turned 16.
    Our goal in supporting both these competitions is to 
identify and celebrate talented young scientists, and through 
them to inspire younger scientists to take the classes that 
they need in K-12 and on so that they can successfully compete 
and gain the visibility.
    Intel does not just focus on talented students. We also 
invest in teachers through programs like Intel Math. We 
invested in Intel Math because studies show that elementary 
teachers were often uncomfortable with the basic concepts of 
math. This intensive training provides them the confidence in 
the classroom setting, and a recent study of the impact showed 
that teachers that went through the Intel Math Program, their 
students scored significantly higher than other teachers' 
students.
    Over the past decade, Intel and the Intel Foundation have 
invested more than a billion dollars to improve education 
around the world. Our investments in education expand 
opportunities for people like Sarah and Jack and for millions 
more. At the core of our programs is our partnership in 
advocacy. In order to deliver Intel Math, for example, we 
partner with the University of Arizona and local school 
districts to ensure we increase impact. The Society for Science 
and the public here in Washington, DC, is our partner in Intel 
ISEF and Intel STS, and Project Lead the Way is a significant 
partner of ours in many states.
    Another contribution we make to STEM is promoting skills of 
our workforce. Our employees in the U.S. volunteered more than 
235,000 hours in the classroom last year working with young 
people around math, science, technology, and engineering.
    In closing, I want to thank you for this opportunity. The 
importance of STEM to our country cannot be overstated, and we 
appreciate the chance to talk about it with you here today. 
Thank you.
    [The prepared statement of Ms. Esque follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Bucshon. Thank you very much. I am going to let 
the buzzers stop and then we will--I now recognize Dr. Smith 
for five minutes to present his testimony.

                  TESTIMONY OF DR. BOB SMITH,

          VICE PRESIDENT AND CHIEF TECHNOLOGY OFFICER,

        ENGINEERING AND TECHNOLOGY, HONEYWELL AEROSPACE

    Dr. Smith. Chairman Smith, Chairman Bucshon, Ranking Member 
Lipinski, Members of the Subcommittee, good morning. My name is 
Bob Smith, and I am the Vice President and Chief Technology 
Officer for Honeywell Aerospace. Thank you for the opportunity 
to be here today to discuss Honeywell's contribution to 
science, technology, engineering, and mathematics education.
    American ingenuity has always been part of our Nation's 
history. It is truly remarkable to reflect on all the 
innovation that has come so quickly to this relatively young 
Nation. While most of us are well aware of inventions like the 
lightening rod, Morse Code, the light bulb, the airplane, the 
Internet, we often overlook over innovations such as the 
skyscraper, modern refrigeration, the phonograph, solar cell, 
communication satellite, GPS, and of course, two Honeywell 
favorites, the thermostat and the autopilot.
    For more than two centuries American innovations have 
changed the face of our world, creating new industries and 
occupations, helping them turn technological dreams into 
reality. At its core, innovation leads to new products and 
processes that sustain our industries. Technological 
innovation, which has become the foundation of the modern 
expansion in broad-based prosperity and economic growth, is 
fueled by brilliant minds that have a deep understanding of 
math, science, and engineering.
    America's global competitiveness increasingly depends on 
our ability to educate our young people in math and science and 
attract more of the world's best and brightest into 
technological careers.
    While strong, consistent, research-based policy will always 
be the most vital element in advancing a national 
competitiveness agenda, Honeywell has invested and remains 
committed to supporting the growth in STEM education in several 
ways.
    It starts with our Honeywell Hometown Solutions efforts. 
Building on a century-long tradition of corporate citizenship, 
Honeywell Hometown Solutions has become one of the most 
recognized corporate citizenship initiatives in the world.
    Alongside leading public and non-profit institutions, our 
Hometown Solutions Program addresses five important areas: math 
and science education; family safety and security; housing and 
shelter; habitat and conservation; and humanitarian relief. It 
is that first pillar, STEM education, that gets me personally 
and professionally excited about what can and should be done.
    Honeywell promotes STEM at all educational levels and 
across the world through three main programs: our FMA Live! 
Program; the Honeywell Educators at Space Academy; and the 
Honeywell Leadership Challenge Academy.
    One program, FMA Live!, is an award-winning hip hop science 
education program designed to inspire middle school students to 
pursue studies in STEM. FMA Live! delivers a solid science 
foundation supporting the learning objectives of National 
Science Education Standards for grades five through eight. It 
helps students learn that science is the key to understanding 
the world around them.
    Continuing our support of STEM education, Honeywell 
developed the Educators at Space Academy, targeted for middle 
school math and science teachers in conjunction with the U.S. 
Space and Rocket Center. The program allows teachers to 
participate in 45 hours of classroom, laboratory, and training 
activities focused specifically on science and space 
exploration.
    Another program created in partnership with the U.S. Space 
and Rocket Center is the Leadership Challenge Academy. The 
academy is designed to encourage high school students of 
Honeywell employees to pursue math and science throughout their 
secondary education.
    In all, Honeywell science and math education programs have 
helped inspire more than 300,000 next generation scientists and 
engineers, one student at a time.
    Our initiatives are designed to nurture skills and talents 
in a cross-functional way in order to develop innovative, high-
value, high technology products and solutions. We pursue this 
effort with a relentless passion and a focus to help bring 
ever-greater levels of safety, capability, and efficiency to 
the world.
    In April, I plan to return to Washington, D.C., to support 
the opening of the Time and Navigation Exhibit at the 
Smithsonian's National Air and Space Museum. Honeywell has 
invested in this exhibit and provides some of the key 
technologies on display. In this exhibit, visitors will be able 
to explore how improvements in navigation in time have changed 
our world. These innovations have given us a world where we 
never have to be lost again if we have the right device with 
us. They allow us to explore more creatively. It is an 
important exhibit on an international scale. But the exhibit is 
even more important to the discussion we are having today 
because the United States has always been a leader in 
navigation and has been in this past century.
    Chairman Smith, Chairman Bucshon, Ranking Member Lipinski, 
Members of the Subcommittee, we have an opportunity to reflect 
on the environment, initiatives, and policies that created the 
great inventions that we find in the Smithsonian.
    Honeywell is committed to doing its part in educating and 
supporting the students of today who will ultimately become the 
innovators of tomorrow. We believe that supporting strong STEM 
education is essential to our company's future.
    Thank you for the invitation to speak to you today. I 
appreciate your time and attention to this important topic. 
Thank you.
    [The prepared statement of Dr. Smith follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Bucshon. Thank you.
    I now recognize Dr. Bertram for five minutes to present his 
testimony.

                TESTIMONY OF DR. VINCE BERTRAM,

             PRESIDENT AND CHIEF EXECUTIVE OFFICER,

                      PROJECT LEAD THE WAY

    Dr. Bertram. Thank you, Chairman Smith, Chairman Bucshon, 
Ranking Member Lipinski, and Members of the Subcommittee. Thank 
you for the opportunity to be here.
    Project Lead the Way is a mission-driven organization 
focused on preparing students for this global economy. The 
statistics we heard at the outset of this Committee meeting 
could be described as nothing else other than a crisis in 
America, and it is going to require all of us working together 
to solve it. We are the leading provider of STEM education for 
middle and high schools across the country. We are in all 50 
states, including the District of Columbia, and in 2013, we 
will be in another 5,000 middle and high schools, with over 
500,000 students engaged in our program. In 2014, we will 
introduce an elementary school program as well, providing K-12 
solution, as well as introduction to computer science and 
software engineering, along with our engineering and biomedical 
science programs.
    The thing about Project Lead the Way is, one is it is 
scalable. We started with a vision in upstate New York of being 
in 12 schools. Today we are in over 5,000 and with last year 
over 20 percent growth. We are also for all students. We are in 
all school types, from urban, suburban, public, public charter 
schools, private, parochial, small and large schools, rural, 
and as well as low income and affluent schools.
    We are also a sustainable organization, one that is built 
on strength and operational excellence so that we can continue 
to advance this important mission across our Nation.
    But our program is built on three key pillars. One is 
providing world-class curriculum that is engaging for students 
that is standards based, is aligned with industry and post-
secondary expectations. It is project-activity based. Most 
importantly we teach kids how to think critically, how to 
problem solve, and how to collaborate; the type of skills 
required in the workplace.
    We also train thousands of teachers. Last summer we trained 
over 3,800 teachers across the United States at one of our 48 
university affiliates such as Duke University, University of 
Illinois, San Jose State University, and Milwaukee School of 
Engineering and many others that engage with us in an 
intentional effort not only to train teachers, but to engage 
with our schools and with our students.
    We have a national network of master teachers, over 400 
teachers that train other teachers on how to teach STEM 
education, how to teach in a project-based classroom, which is 
a fundamental shift in the way teachers teach.
    But the third pillar deals with this network. As I 
mentioned, it is critically important that we collaborate, we 
find ways to work together. No one is going to solve this 
problem alone, and it is not going to be just in K-12 education 
or higher education, but it is a seamless pipeline. So for us, 
some examples. Such in California where NextEd in Sacramento is 
really moving toward a statewide implementation of Project Lead 
the Way. We have grown from five schools in the mid-2000s. Now 
we are 400 schools, but it is because knowing NextEd's vision, 
but also companies like Intel, who is helping grow and sustain 
programs in California and across the Nation. We have a great 
partner in Chevron, who is investing millions of dollars in 
Project Lead the Way schools to provide this kind of 
opportunity for students. Companies like Autodesk.
    At the same time we have companies like Toyota, that is 
using Project Lead the Way, recruiting our students into their 
Advanced Manufacturing Technician Program. We had our first 
cohort that graduated in their AMT Program in Georgetown, 
Kentucky, last May, and all of our students did exceptionally 
well and now have opportunities to work for Toyota. That is 
rolling out into all their North American facilities, 
recruiting PLTW students into an Advanced Manufacturing 
Technician Program that will allow our students to earn 
Associate Degrees and for some to go onto Baccalaureate 
Degrees.
    We also enjoy great support from the Aerospace Industries 
Association, one program that is endorsed by AIA, but it is 
companies like Boeing that provide great support across the 
Nation, and Rolls Royce, and a great partner in Lockheed 
Martin. Companies are absolutely committed to this work.
    But most importantly PLTW works. It is a proven solution. 
Robert Tai, a professor at the University of Virginia, wrote a 
white paper recently capturing 30 studies that have been done 
on Project Lead the Way over the last 15 years, and the 
evidence is compelling. Our students outperform, they persist 
in higher education, they aspire to go into STEM disciplines, 
the exact type of educational program we need to help grow 
America and improve our economy.
    Thank you.
    [The prepared statement of Dr. Bertram follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Bucshon. Thank you.
    I now recognize Ms. Ingram for five minutes to present her 
testimony.

                TESTIMONY OF MS. ANDREA INGRAM,

        VICE PRESIDENT OF EDUCATION AND GUEST SERVICES,

                 MUSEUM OF SCIENCE AND INDUSTRY

    Ms. Ingram. Thank you, Chairman Smith, Chairman Bucshon, 
and Ranking Member Lipinski and the other Members of the 
Subcommittee. I am Vice President of the Museum of Science and 
Industry, Andrea Ingram. It is my privilege to be here, and I 
appreciate the invitation to speak about the impact of our 
innovative science education programs and the work of non-
profit institutions like ours.
    I don't have to restate that STEM is critically important. 
It is critically important to our economy, to our well-being, 
and our environment. Countries around the world are investing 
in science education and innovation like never before. It is a 
highly-competitive race for the future. In fact, delegations 
from China and South Korea and other countries have been coming 
to the Museum of Science and Industry to learn what we are 
doing and why it is working. These countries recognize that the 
race for the future will not be won by test scores. It will be 
won by youth who are well positioned to lead our economies into 
the future. Their often-stated goal is to incubate the next 
STEM jobs. It is not to beat us on the international 
benchmarks.
    What we know and what 21st century learning skills require 
and what the next generation science standards anticipate is 
that critical thinking is key, creativity is a must, and the 
art form of collaboration is the lynch pin. These are the 
skills that are practiced every day at MSI and the 365 science 
centers around the country serving your constituents. These 
science centers like us are nimble and strategic in meeting the 
needs of our local communities. We are the perfect nexus where 
industry, civic institutions, parents, students, and schools 
can come together to make sure our youth have what they need to 
be well positioned to be our next generation of scientists and 
innovators.
    The Museum of Science and Industry is the largest science 
center in the Western Hemisphere. We have the privilege of 
hosting nearly one million, five hundred guests every year. 
They get to explore our award-winning exhibitions and 
participate in our live science experiences. Our vision is to 
inspire and motivate these youth to achieve their full 
potential in science, technology, medicine, and engineering, 
and to do that we founded the M`useum's Center for Advancement 
of Science Education to leverage the inspiration and engagement 
of our world-class exhibitions. Through CASE we make real 
science accessible in classrooms, in homes, and communities 
where children live their lives every day.
    At MSI, again, we have the privilege of hosting 35,000 
children on field trips every year. These children get to do 
science in our exhibitions. They participate in live science 
activities, they dissect eyeballs, 25,000 go to fabulous 
learning labs like Mission to Mars, a fabulous program funded 
by NASA. At MSI we extend science even further. We support 
science clubs in 72 community-based organizations. We work with 
high school youth on content and communication skills. We 
bridge them into college and careers.
    At MSI we do science even more by supporting teachers doing 
science in middle grades classrooms, teachers, 70 percent of 
whom are in our middle grade schools, in our region without a 
background in science. They need support in supporting their 
children doing science. These teachers have earned graduate 
credit, they have earned Master's Degrees and now we have them 
in 25 percent of Chicago public schools.
    We have received an enormous amount of support from 
companies like Dover, ITW, Boeing, Tacada to name just a few. 
They are important partners and contributors. We also have 
received Federal funding for our STEM programs, and I urge this 
Subcommittee to strongly support programs within NASA, NOAA, 
and NSF, namely NASA's Competitive Grant for Science Museums 
and Planetariums, NOAA's Environmental Science Literacy Grant 
Program, NSF's Advancing Informal Science Learning Program. We 
are able to leverage these funds to gain corporate commitment 
because our corporate partners are smart. They know that these 
organizations are competitively giving these funds, looking at 
the landscape of programing and funding only the best. We are 
able to raise $3 for every 1 for those programs but 20 for 
every $1 for the museum itself.
    These investments are improving science education. Our 
economy depends on our ability to have our youth positioned to 
be our next generation. Without the support of these important 
Federal funds we will lose key resources to prepare that next 
generation of innovators and scientist.
    Thank you.
    [The prepared statement of Ms. Ingram follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Bucshon. Thank you very much. I would like to 
thank all of the witnesses for your testimony and remind 
Members that the Committee rules limit questioning to five 
minutes.
    The Chair at this point will open the round of questions, 
so I recognize myself for five minutes once I get to my 
questions.
    Dr. Bertram, I am fascinated by the Project Lead the Way's 
activities, project and problem-based learning that focuses on 
hands-on, real-world projects. Can you tell us why Project Lead 
the Way has invested in this approach, and what are the 
benefits of this approach over other traditional learning 
methods?
    Dr. Bertram. Yeah. Thank you. Inspire students. It engages 
them in ways that traditional learning doesn't. You know, 
students expect to enjoy working on projects and applying math 
and science, and one solution that we have had to trying to 
improve math is just to acquire more math, and the same way 
that we have taught math. But in this program students actually 
apply math and science.
    One of the things that early on in our history was of 
concern was that students would not take as much math and 
science if they took Project Lead the Way as an elective 
course. We have found over the last 15 years just the opposite. 
Our students take more math and science because they finally 
recognize these are tools to help solve problems, and they need 
this relevancy in their program of study.
    Chairman Bucshon. And also your--I am intrigued by the fact 
that you are going to start going into elementary schools. Can 
you kind of describe what you'll be doing at that level?
    Dr. Bertram. Sure. It is going to be project-activity 
based, and again, allowing students to apply math and science. 
We are using touch technology, we are using apps, and it is 
going to be for all grade levels, K through five, leading into 
our middle school program at grade six. So we are excited about 
it. We are piloting right now. We have a number of schools 
across the country and tremendous interest in the elementary 
program, and we are looking forward to rolling it out in 2014.
    Chairman Bucshon. Dr. Smith, you talked about Honeywell 
Educators at the Space Academy Program. Can you tell us more 
about how you--the selection criteria for teachers to 
participate in that program, and what are the goals, and how 
are the results being measured and evaluated?
    Dr. Smith. Yeah. I would be glad to. We are excited about 
the program. Honeywell Educators at The Space Academy is a 
nationwide program by which we get high school and middle 
school teachers engaged in this through a nationwide selection 
process. We evaluate their nomination forms and talk about how 
do they actually inspire and what do they hope to get out of 
the program.
    So it is very much looking at how they are going to take 
this experience and take it back to their classrooms. We have 
trained over 1,700 in this five day program that we have at the 
U.S. Space and Rocket Center. It is a classroom, 45 hours of 
classroom experience as well as other leadership and 
development training. So we give them tools to take back to 
their classrooms, and I have to say that the feedback from the 
teachers has been just exceptional. They come out of there 
incredibly energized. They now understand how this applies to 
their students and quite honestly they have a number that will 
say things like, I am confident that I will have a student 
someday that will walk on Mars, and now I have the tools by 
which I can go inspire that student.
    Chairman Bucshon. That is great. Thank you. Ms. Esque, can 
you tell us more about the Intel-Involved Volunteer Program? I 
think that sounds like a great thing. How did it get started, 
and how many of your employees participate?
    Ms. Esque. Thank you, Mr. Chairman. Intel involves the way 
we encourage employees to chase their passion into the 
community, and the primary way they choose to do that is 
through education because we have a highly-educated workforce. 
They want to give back through the schools in their 
communities.
    What we do is provide them with curriculum, tools, science 
experiments, hands-on learning that they can bring to the 
classroom, and then we supplement their time by paying the 
school directly for having the employee be there. So it is 
really a win-win. The school can then use their money to buy 
additional science kits or additional professional development 
for the teachers, whatever they feel is the best use.
    About 58 percent of Intel employees volunteer annually, and 
we have exceeded over a million hours for the last five years 
worldwide.
    Chairman Bucshon. Great. Thank you all for those questions 
being answered. I think it is fascinating how there are so many 
people out there working on this particular issue. I am very 
confident we are going to make progress.
    I now yield to Mr. Lipinski for his questioning.
    I will yield to Mr. Bera. He is going to go first.
    Mr. Bera. Thank you, Mr. Chairman. Thank you, Ranking 
Member. Mr. Chairman, thank you for how active this Committee 
is, and thank you for calling this. In fact, it is STEM 
education and educating the next generation is probably one of 
the most important things that we can do as a Nation.
    I am also particularly pleased to see representatives from 
Intel and Project Lead the Way, you know, on the panel today. I 
am glad to hear you talk about NextEd and the importance and 
the impact that you are having in Sacramento County with our 
students and the important investments that Intel has made.
    And, Ms. Ingram, as a former associate dean at U.C. Davis 
Medical School I am glad to see an Aggie in the house.
    You know, both Intel and Project Lead the Way have 
dedicated enormous resources, time, and energy to making sure 
our children and grandchildren lead the way in innovation and 
invention in the 21st century. As Dr. Bertram has mentioned, 
Project Lead the Way, which is managed by NextEd in our 
community, has been transforming education with their 
engineering and biomedical classrooms. I have had the chance to 
see this firsthand a few weeks ago. I attended a breakfast 
where students from Antelope High and Sacramento County shared 
their projects and talked about how the innovation class 
supported by Project Lead the Way and Intel helped unlock their 
imagination.
    In many ways it reminded of, you know, when I was in junior 
high, and, you know, we had wood shop, we had metal shop. It 
was applying what we were learning, you know, in our math 
classes. You know, it may not have sounded like mathematics, 
but you had to imagine a project. You had to put it on paper 
and draft it out, and then you had to go about developing the 
project, and far too often those are the classes that are 
getting cut in our current testing base curricula.
    Last night I had the chance to attend Intel's Science 
Talent Search Awards Gala, and let me tell you, that event, it 
really makes me optimistic about what the future looks like. 
There were some incredibly talented young people there, but we 
have to make sure we are producing more of these young 
scientists and so forth.
    You know, Project Lead the Way and Intel's Science Talent 
Search are two great examples of how we can unlock the talent 
for the next generation.
    Dr. Bertram, my question is for you, what is it that is so 
unique about Project Lead the Way that makes it an easy, 
affordable, and sustainable source of STEM education for local 
districts and school sites?
    Dr. Bertram. I think the most important thing is it works, 
and there is compelling evidence and years of evidence that, 
you know, we produce students that are excited about math and 
science, that do better in math and science, that aspire to 
careers in STEM, and those are the things that we believe are 
most compelling.
    At the same time, you know, affordability is very important 
for schools, and that is where we connect with companies all 
over America to help provide funds for schools to start this 
program and to sustain it, but we are constantly looking for 
ways to reduce costs, and we are bringing partners to the table 
to provide industry standard software for our schools, the 
technology they need to deliver programs, as well as equipment 
and other materials, and it is this collaboration, this 
network, this expansive network of partners across the Nation 
that we believe allow this to be scalable beyond where we are 
at today.
    Mr. Bera. Great, and Ms. Esque or Dr. Bertram or any of the 
panelists actually, what can we do here in this body, in 
Congress, to help foster more corporations and more innovative 
programs like Project Lead the Way and this corporate public-
private partnership?
    Ms. Esque. Thank you, Mr. Bera. I think the important thing 
to do is to shine the light on what is working, and when there 
is data behind the program that actually has dramatic results, 
then I think more corporations are more likely to want to 
invest in that, and by you highlighting that corporations are 
trying to make a difference, I know that also encourages others 
to step up and be a part of the solution.
    Mr. Bera. Great. Thank you. I will yield back the rest of 
my time. Thank you.
    Chairman Bucshon. Thank you very much. I now yield to 
Chairman Smith.
    Chairman Smith of Texas. Thank you, Mr. Chairman. I would 
like to address I think the same couple of questions to each of 
our witnesses today, and my questions go to the GAO report that 
looked at the over 200 Federal STEM programs, and it did so 
with the idea of finding out whether there was any duplication 
among these programs or not. And it found no duplication, but 
it did find overlap. I am not sure what the difference is. It 
seems to me overlap is partial duplication.
    But in any case my questions are these. What do you all do 
to avoid duplication with the Federal Government's over 200 
STEM Programs, and what advice do you have for the Federal 
Government to enable the Federal Government to avoid 
duplication with your program? So if you would, look at it from 
both sides, and Ms. Esque, if we could start with you.
    Ms. Esque. Thank you, Mr. Chairman. We also need to avoid 
duplication with ourselves, so I would start there.
    Chairman Smith of Texas. Goes all directions.
    Ms. Esque. I think it is really important that the Federal 
money is often used to seed or to do the research, to prove the 
validity of the STEM Program, which provides a huge service to 
the corporations that are hoping to invest. So I think what we 
are looking for the Federal Government to do is do that seed 
work, that research work, and then corporations and other 
partners can come in and collaborate with what is been started 
and to take it to scale.
    And so I am not sure we have a good methodology for 
ensuring we are not duplicating, but we do look for 
opportunities where something has been proven or something has 
been started but then needs to be taken to another level, which 
helps us move forward.
    Chairman Smith of Texas. Thank you. Dr. Smith.
    Dr. Smith. So the way we look at our STEM initiatives is 
really around three areas. We try to inspire, educate, and 
connect. In the first area, inspiring is something that I think 
industry is somewhat uniquely able to go do in that it can show 
the practical result of efforts being done at secondary and 
elementary schools. Where does this all lead to? What do you 
get to go do when you actually go apply this work? That 
inspirational piece and being able to touch and understand what 
is going to come out of a career in STEM can be very powerful.
    Educating and connecting is also I think very important 
because there is an area in which the practicality of what 
happens in industry can be truly highlighted. So the project-
based discussions that have been discussed here earlier today I 
think is a key element. There is more work that can be done in 
terms of explaining the practicality of how engineering and 
technology gets developed. Engineering and technology is a team 
sport. It is rare that you are ever going to have a single 
innovator doing everything that needs to get done to put 
something into the marketplace. So understanding how teams 
work, how a project works is a key element of what we do.
    Chairman Smith of Texas. Thank you. Dr. Bertram, how do we 
avoid the overlap?
    Dr. Bertram. Well, I think first as an organization we have 
to remain focused on exactly what we do and be very clear about 
what we do and not continue to move into other areas simply to 
chase funds. I mean, that is a very important piece, and 
oftentimes we get mission creep as a result of funding going in 
different directions, and we are very careful not to do that. 
And to be accountable to our funders and supporters.
    The other is clearly one of the first questions we ask, as 
we consider anything, is who can we partner with, you know, who 
are other organizations in the space doing similar work, we can 
come together, leverage resource, and do something together.
    And finally, I think it is very important that we begin to 
fund things that work, where there is evidence, clear evidence 
that we are making a difference for America's children.
    And one other point, I mentioned resources. As we raise 
money from companies across America, 100 percent of those 
dollars go to schools. We keep zero as an organization, and we 
think that is a very important element, and it also generates a 
lot of excitement and interest from our partners as well.
    Chairman Smith of Texas. Thank you, Dr. Bertram. Ms. 
Ingram, you mentioned you had 100, 1.5 million visitors this 
last year, which makes you I think second to Air and Space in 
D.C. Is that right?
    Ms. Ingram. Well, I don't know. I am not going to argue 
with you, though.
    Chairman Smith of Texas. Okay.
    Ms. Ingram. That is probably correct, however, in the 
science center land we are very large.
    Chairman Smith of Texas. I understand and appreciate that. 
Do you want to try to suggest how we might avoid that overlap?
    Ms. Ingram. Well, I must say that I have not experienced a 
great deal of overlap. There is about three Federal programs 
that we are qualified to apply for: NSF, NOAA, and NASA. There 
are content distinctions in those programs, so we do have a 
NOAA grant now that allows us to do an earth science course for 
our middle grade science teachers.
    Chairman Smith of Texas. Good.
    Ms. Ingram. We have a NASA grant that allows us to do a 
fabulous learning lab for the students who come and join us on 
field trips, and NSF we have had a lot of trouble getting money 
for because they are very focused on research at this point 
with universities rather than public engagement such as 
exhibitions and some of the core work that we do to actually do 
science.
    So for us it is always about extending our strategic 
priorities, looking for partners, corporate, civic, government, 
wherever they may be, not to duplicate work but to address 
unaddressed local needs.
    Chairman Smith of Texas. Thank you, and it seems to me it 
would be fairly simple for the Federal Government to check the 
nature of the grants and contracts they are issuing----
    Ms. Ingram. Yes.
    Chairman Smith of Texas. --and make sure that they are not 
duplicative as well.
    Ms. Ingram. Yes. They are very precise in that effort.
    Chairman Smith of Texas. Thank you and thank you, Mr. 
Chairman.
    Chairman Bucshon. I now yield to Mr. Lipinski for five 
minutes.
    Mr. Lipinski. Thank you, Mr. Chairman. I could go on 
praising all of you for what you and your organizations are 
doing. I know that--I think Dr. Smith put it well that their 
goal is to inspire, educate, and connect, and I think the 
inspiration part of it especially is critically important. So I 
think all of you are--all of your organizations are providing a 
great role. I know the Chairman talked about going to the 
Museum of Science and Industry and the coal mine. I mean, when 
I was a kid, that was the big thing, going to the coal mine 
there, but so many of the exhibits there at the Museum really 
did inspire me, and I think all the programs that all of you 
have talked about are--serve as inspiration.
    I have in my district something that is just starting. It 
is in two school districts now, Lemont and Lockport, something 
called Project Infinite Green, where they are, again, it is a 
collaboration. I think that is very important. They have--Argon 
National Lab is involved, CITGO is involved, Exelon Power 
Company is involved in just bringing, in helping kids in middle 
school to learn about energy, and they develop energy 
solutions. I think a group came out here last year to talk 
about what they had learned and sort of present what they see 
as, you know, this is another way that we can produce green 
efficient energy.
    So I think that is all very important, what you are doing. 
I thank you for doing that.
    The--Chairman Smith had really focused on the Federal role 
and not having that overlap. I don't know if there is anything 
else that anyone wanted to add about the role that Federal 
agencies are doing that are--in addition to anything that you 
said, you know, either about direct funding, public-private 
partnerships, collaborations, other support, or anything that 
you see that they can do or can do better in this area. Is 
there anything anyone wanted to add on that?
    Dr. Smith.
    Dr. Smith. I guess I would add one thing. In business, we 
are always supporting many things to go develop our talent--and 
that is largely what STEM education is about. It is providing 
the resources, the capital, how do we get the training, all of 
that. The government has a similar role. It just takes a 
different form in terms of how those tools, resources, capital, 
and et cetera get applied.
    But I think one thing that we often miss in part of this 
and something that we try and go do, and I think it is an area 
that the government can do, is the concept of the leadership by 
audacious ideas--putting out something that is really 
challenging for the industry, challenging for science, 
technology, engineering professionals. That could be an 
incredibly powerful thing, and if you look at the history of 
where we have had great advances in this country, it doesn't 
take necessarily a moon shoot. Certainly a moon shoot inspired 
me and another generation of people to get into this industry, 
but things like ARPANET created the entire Internet. There is 
many other ways.
    So bringing that inspiration, bringing that leadership by 
audacious ideas can be very, very powerful, and it would be 
something that I would actually recommend that we spend some 
more time thinking about as a country.
    Mr. Lipinski. Thank you. Dr. Bertram.
    Dr. Bertram. Yeah. Thank you. There are two or three things 
that I think are very important. Not only we focus on STEM but 
we also need to look within the pipeline and the opportunities 
that are in front of us that we are not taking advantage of. 
For instance, the percentage of girls in STEM education and 
specifically in engineering, the minority students, and you 
know, I think the thing that creates fatigue in all this 
discussion are all the excuses that we find for not engaging 
certain types of students in this work, and there are all kinds 
of examples.
    I will give you one. Toppenish High School in Yakima, 
Washington. A school with nearly 100 percent free and reduced 
lunch, a school with over 90 percent minority population. Their 
principal was just named National Principal of the Year. Their 
test scores are going up exponentially, and it is a school with 
over half their students in Project Lead the Way. These 
students can do this work.
    We have a school here, Davidson High School, in our 
engineering program, and now it is over 40 percent girls. We 
have all kinds of examples where people are breaking through 
and not accepting excuses for low performance, and I think the 
thing that we can continue to focus on is having high 
expectations for all students and encouraging other students to 
enter this pipeline.
    One other thing is the public-private partnerships and the 
opportunity for engagement, and really the insistence that we 
work together in all sectors to bring urgency of this work, and 
one final thing. We heard early on the active nature of this 
Subcommittee, and I would suggest to you that it is critically 
important that it continues to be highly active and continue to 
focus on the urgency of this work across our Nation.
    Thank you.
    Mr. Lipinski. Thank you, and hopefully we will have--I want 
to come to Ms. Ingram. Maybe if we have a second round we can 
come back, possibly do that so--but I will yield back right 
now.
    Chairman Bucshon. The Chair yields to Mr. Brooks.
    Mr. Brooks. Thank you, Mr. Chairman. First, I have got a 
comment for Dr. Smith. Very much appreciate Honeywell's 
participation in the Honeywell Educators at Space Academy. My 
kids have gone there. One of them was an instructor there for a 
period of time before getting a teaching job in South Carolina, 
and for you all to contribute sufficient funds to graduate over 
200 teachers per year on average from the program there I think 
is outstanding. Thank you doing what you do, and it is also 
nice it happens to be in my district.
    On a more serious subject, I am looking at the Chronicle of 
Higher Education article, June 25, 2012, and I am going to read 
a little from it before I ask a question for each of you to 
ponder and respond to. It says, ``This year a report issued by 
the President's Council of Advisors on Science and Technology 
on which we serve concluded that if the United States is to 
maintain its historic preeminence in the STEM fields, science, 
technology, engineering, and mathematics, and gain the social, 
economic, and national security benefits that come with such 
preeminence, then we must produce approximately one million 
more workers in these fields over the next decade than we are 
on track now to turn out. At first glance that may seem to be a 
daunting task, but it doesn't have to be. At current rates 
American colleges and universities will graduate about three 
million STEM majors over the next decade, so an increase of one 
million would require a whopping 33 percent increase.''
    Using that number of three million over a decade, that 
comes out to an average of about 300,000 STEM majors graduating 
from universities each year, and I notice from the staff 
Committee report it says that, ``the Administration's Fiscal 
Year 2013 budget request proposed nearly $3 billion across the 
Federal Government for STEM education.''
    So, again, doing math, if we have got $3 billion, and we 
have got 300,000 university students who are now majoring in 
STEM, that comes out to $10,000 per student, and it occurred to 
me that if we want to get that up to 400,000 graduates per 
year, that would come out to $7,500 per student. Why not give 
them scholarships as an incentive? If I am a parent and I find 
out that my child can get an engineering degree or a science 
degree or something like that and they are going to get a 
scholarship award of $7,500 per student up to $10,000 per 
student, as a parent I am going to say, son or daughter, this 
is where you are headed.
    Now, two of my sons are engineers as it is, so that is the 
direction they went, mechanical engineering and aerospace 
engineering, but what are your thoughts on eliminating a lot of 
this Federal bureaucracy and taking that $3 billion and just 
using it as a scholarship program, a monetary incentive for 
these high schoolers to get that college education in the STEM 
subjects?
    Ms. Esque. Thank you, Mr. Brooks. I think it is one 
wonderful idea, but let me speak a little bit about the 
difficulty of graduating those students that enter the STEM 
careers and to keep them in the pipeline. Between 40 and 50 
percent of freshmen engineering and computer science students 
will end up changing majors and dropping out of STEM.
    Mr. Brooks. I did that. Economics and political science.
    Ms. Esque. You turned out okay, though.
    Mr. Brooks. Thank you, although the jury is still out.
    Ms. Esque. But in order to retain them in the STEM fields I 
think is where we will get a bigger bang for the buck. So once 
they enter, they show the interest, how do we keep them there? 
And what we know works is exactly what we know in K-12, hands-
on science. So we have been funding for many years a research 
fellowship with the Semiconductor Research Association to 
ensure that those undergraduate students get real time to do 
real research with real scientists, and 97 percent of the 600 
students that we have funded stay on, complete their STEM 
degree, and half of those go on and get a Master's or Ph.D.
    So it is not just getting them into the course room, into 
the classroom, but it is keeping them interested and getting 
them to graduate.
    Mr. Brooks. Well, if they lose that 7,500 to $10,000 per-
year scholarship, don't you think that is an incentive for them 
to continue to take those hard courses in science, technology, 
engineering, and math?
    Ms. Esque. Yes, sir, I do believe it is an incentive, but 
if in the K-12 system they didn't receive the fundamental 
training to be successful, the incentive may not be enough to 
keep them there.
    Mr. Brooks. And I see my time's running short, but if 
anyone else would like to help share insight.
    Dr. Bertram. Yeah. Quickly. Many of our college affiliates, 
university affiliates offer scholarships and college 
recognition, college credit advanced standing for our students, 
and I would suggest it is a significant incentive for our 
students, and it is something that intentional outreach where 
they understand that there are resources available for them, it 
is an incentive.
    But the other thing to your question of really growing the 
STEM pipeline, we find that--and these are studies that have 
been done on PLTW over the last 15 years, that 92 percent of 
our students pursue degrees, 70 percent pursue degrees in 
engineering, technology, or computer science. We have 90 
percent that when they graduate have a clear understanding of 
where they are going and the confidence to go there. Milwaukee 
School of Engineering, for example, found that their freshmen 
to sophomore in the attrition that about 76 percent of their 
students do not continue their declared major, where Project 
Lead the Way students, they found 100 percent of their--our 
students stay in the major they declare from freshmen to 
sophomore year.
    So our big challenge now is just to gain, provide greater 
access to more students across this Nation.
    Mr. Brooks. Thank you, Mr. Chairman. If you all forgive me, 
I have to depart for a Foreign Affairs Committee hearing that 
began about seven minutes ago. Thank you.
    Chairman Bucshon. Thank you, Mr. Brooks.
    I yield to Ms. Esty for five minutes.
    Ms. Esty. Thank you so much, Mr. Chairman, and again, this 
is the hardest-working Committee because we love what we do, 
and we care deeply as you do about the future of this country.
    I wanted to touch on a couple of points. One as the mother 
of three children, one who is doing astrophysics and someone 
who grew up going to the Museum of Science and Industry as many 
of us here were inspired to do, I think that is a sign, though, 
of the importance of inspiring children.
    So with all due respect it is not just keeping them in 
school at the university level but having them even aspire to 
that. So I wanted to explore both the question about women and 
minorities and inclusiveness, which I think has got to start in 
much younger grades. It is too late if you wait to university. 
So that was one, and how we retain teachers, something that we 
haven't talked about, but, again, I would just know from my own 
experience seeing in public schools how incredibly difficult it 
is to maintain really good math and science teachers because 
they are lured elsewhere with a lot greater pay and the best 
ones are in incredibly high demand. And if you don't have an 
excellent teacher, it is going to be very hard to inspire 
students.
    So if you could all weigh in on that I would appreciate it. 
Thank you.
    Ms. Ingram. Thank you for the question. These questions all 
begin and end with our children and whether or not, indeed, 
they are inspired and motivated to participate in these fields 
and whether or not they feel they are included and that science 
and technology are for them. That formation in their 
development starts really early, and although testing is not 
the be all and end all, it is very reflective of this issue, 
that in the U.S. if they are not doing well by the end of 
middle grades, they are not going to continue on in STEM.
    So the first strategy is to broaden the pool of potential 
innovators and scientists to ensure that we are broadly 
inclusive, that we are reaching them where they are with 
concrete strategies, and I appreciate everybody's reflections 
on their good feelings for the Museum of Science and Industry 
and the science centers and their community, whether it is St. 
Louis or San Francisco. But honestly, we go so far beyond 
inspiration now. We are targeted to ensure that the youth we 
encounter can achieve in the middle grades and achieve in high 
school, and if they do not meet those steps, they will not 
achieve in college.
    What we know, what the research is quite clear about is 
that college access, getting them to that point, getting them 
to college is the critical barrier. If we can broaden and 
diversify the pool of potential scientists and innovators with 
our under-represented communities, including more women and 
minorities, we know that if we can get them into college, they 
are as likely and in fact, more likely to pursue STEM careers 
and to stay in those STEM careers.
    So for teachers we have to position them for success. High 
school's a little bit different. You have to have a science 
background to teach in high school. You do not in the middle 
grades. So reflect on what I said at the beginning. If we do 
not get them out of the middle grades successful, they will not 
continue. Yet who do we have teaching in the middle grades? 
Yes, we have some exceptional teachers, but we also have 
upwards of 50 percent of our middle grade science teachers lack 
a background in science. We will not be successful in getting 
them to graduate from college with or without scholarships 
until we address these fundamental problems earlier in their 
educational careers.
    Dr. Bertram. And I would concur. I think the thing 
particularly with girls and really for all young people is 
decisions are made at a very early age, second, third grade 
whether they are good at math and science and what they are 
going to pursue as they continue in education.
    So I guess what we have to do is inspire them before we 
expose them to low expectations and really move them through 
this in a powerful way.
    Also from a teacher perspective, what we are finding more 
and more states are opening their teacher licensure program to 
bring in more people into the field of teaching to allow 
engineers and others to be trained to teach students, and more 
people are interested in giving back and doing meaningful work 
with our schools. One of the things we find in our teacher 
training program is it is also very inspiring for teachers, you 
know, to go through a pre-assessment and then spend two weeks 
of intense training on one of our university campuses and then 
the ongoing professional development. Many will say it is 
transformational for their careers and really engages them in a 
deep way and in a very different way.
    Chairman Bucshon. Yield back? We are going to have a second 
round of questioning for those interested, and I will start 
that.
    I recognize myself for five minutes.
    We have talked a lot about students today, not a lot about 
parents, and I would just like to see, just ask all of you your 
perspective on how do we inspire parents to inspire their 
students? Because when the student walks out of the school or 
the classroom, we have to have further inspiration other than 
what you are trying to do in my view.
    Is there anything that we can or should be doing at that 
level? Ms. Esque?
    Ms. Esque. Thank you, Mr. Chairman. One thing we feel 
responsible for is educating our workforce as parents. So we do 
engage parent groups, hold meetings around science and math 
requirements, the core curriculum, and ensure that they have 
access to all the tools and programs that Intel has available 
as parents in the community.
    Also I think it is--we work with a number of non-profits in 
each of our large-site communities to work directly with 
parents, to educate parents with teachers reaching out to them 
and through community organizations bringing them up to speed 
on what careers are like, because careers change so fast 
especially in our industries that parents don't often even know 
what is possible. So getting those employees out into the 
classroom is a big part of that but also bringing the parents 
in and sharing with them what we are trying to achieve.
    Dr. Smith. Yeah. I guess the comments that I would make is 
that parents are the larger determiner of how people do in 
school. You can look at all the studies but at the end of the 
day how a child will do at school and what they choose are 
largely determined by how active their parents are and how 
enthusiastic they are about a given area.
    We have to look as a technical community, look at ourselves 
as being responsible for some of the cultural problems that we 
have in this area. We don't spend enough time talking about 
what we do. We do incredibly exciting things, and we make it 
incredibly dull at times. We just put, you know, a probe on 
Mars, and it is taking pictures, and it is roving around Mars. 
That is never happened before. We create things that have never 
occurred, and we make it incredibly boring at times, and we use 
a lot of jargon. I think that is our fault, and I think we need 
to do more as a broad technical community, whether that is 
government, whether that is non-profits, whether it is our 
industries, in getting out and talking about what we actually 
do and why that is important and why it is exciting.
    Chairman Bucshon. Dr. Bertram?
    Dr. Bertram. Parents play a critical role in this work, and 
I think we have to continue to educate parents on the 
opportunities for students. One great disservice I think we 
have done for America's students is the belief that the only 
way you can be successful is with a four-year college degree. 
There are many career opportunities out there that employers 
are looking for skilled workforce. It doesn't necessarily 
require a four-year degree. We have to--but we have to help 
people understand the opportunities available for them as well 
as understand that education is affordable, and it is also 
attainable. I think those are critical pieces, so what we are 
trying to do is reach out directly to parents to help them 
understand all the career opportunities available to their 
students as well as the skills necessary for their students to 
be successful.
    Chairman Bucshon. Ms. Ingram?
    Ms. Ingram. We have to be as strategic and thoughtful about 
engaging parents and families as we are about their students. 
We need to introduce them to the resources available, we need 
to take them to the college campuses with their youth, we need 
to invite them to the museums for family days, we need to 
engage them in family night activities.
    What happens in that household and the supports that are 
there and the confidence of the families has everything to do 
with whether or not the bridge to college is successful. So it 
is critical that as we think about that student engagement that 
we don't forget that a critical resource at home, the very 
basic things that we can do about making sure all parents know 
how to get in line for the resources and that all parents and 
families have an opportunity to tap those resources and 
leverage those opportunities for their kids.
    Chairman Bucshon. Thank you very much.
    I yield now to Mr. Lipinski.
    Mr. Lipinski. Thank you. A couple of things I wanted to 
mention. One thing is any programs that anyone, any of you are 
doing, certainly I would encourage you to invite Members of 
Congress local in their districts or out here in D.C., anything 
that we can do to help, certainly we are interested in doing 
that.
    Dr. Bertram had just mentioned that there is some of 
these--not everyone needs to get a four-year degree, and as a 
former college professor I hate to admit that, but it certainly 
is something--I mentioned in my opening statement, I go to 
manufacturers in my districts who are looking for workers, and 
they find that they--they are not looking necessarily for a 
college degree but with the basic skills needed to do some of 
these jobs in manufacturing, and they cannot find those 
workers. And they either have to do their own remedial teaching 
in order to get the workers they need. Sometimes they are just 
forced to do that, and it is just a shame that we are not 
producing students just coming out of high school that have 
what they should have in the STEM fields.
    I want to get to--go back to Ms. Ingram. You had mentioned 
in your testimony, and you had also mentioned it here about 
NSF's Advancing Informal Science Learning Program, and you had 
said that, you had raised some concerns about it in your 
written testimony and suggested that in some things that you 
said here. So I just wanted you to expand on that, what you 
are--what the importance of the AISL Program is and what some 
of the concerns that you have or what is going on there right 
now.
    Ms. Ingram. Thank you. NSF has really taken a redirection 
if you look at the list of awardees in recent years. It is 
going heavier and heavier to university research projects, and 
whereas all of us in the scientific field believe in research 
and evaluation, we know, as I said before, what is going to 
make a difference is impacting the people, the youth, the 
programmatic experiences, the public engagement in exhibitions. 
We have had NSF suggest that exhibitions do not have the STEM 
structure to be relevant, and are, therefore, really not 
getting the funding that they used to get. Some enormously 
important exhibitions like ones that Honeywell has suggested 
they are helping to fund and other major corporations view as 
relevant in the progress towards STEM are no longer getting 
access to those monies, and where we recognize that in a 
constricted environment, people must make choices. If we were 
focusing exclusively on researching programs and not doing 
programs and supporting innovation and cutting-edge strategies 
to reach where the children are and, indeed, not even providing 
funding to the people who are working directly with the 
children, then we are going to lose a critical part of that 
innovation.
    So, yes, we have asked, and we will continue to ask that 
NSF reconsider its rational for altering the ISE Program and to 
consider offering future solicitations that reemphasize the 
importance of direct programming and delivering educational 
experiences for students and teachers in public engagement.
    Mr. Lipinski. Thank you. With that I will yield back.
    Chairman Bucshon. Thank you. I now yield to Ms. Esty. Thank 
you.
    Ms. Esty. Thank you very much. We all recognize that we 
face a shortage of workers trained in the STEM fields, but I 
would like you to comment a little bit on the importance of 
STEM training for those who don't enter the science fields and 
if you can talk about what that important, the analytical 
skills, the science background, risk assessment, all these 
other skills that those who may, for example, become Members of 
Congress and what--how we should be thinking about that and in 
the greater value to having this grounding from elementary on 
up.
    Ms. Ingram. Thank you. I mean, look, fundamentally science 
is about figuring out the world all around you, and if people 
don't have the basic strategies that they need to understand 
what is happening in their environments and to make choices for 
their health and wellbeing and their environment, we are not 
going to have a population that is advocating for the right 
things, advocating for the right policies, and making the right 
choices in their personal lives.
    Having a basic scientific literate community is also really 
critical to the other question that was raised about family 
engagement. We all have to understand the role that science 
plays in our lives, the role that engineering plays in our 
lives in figuring out how to make sense of this world and how 
to solve the problems that exist.
    So it is very basic that if a child does not have a family 
that understands the fundamental importance of having math and 
science in their curriculum, it is going to be more difficult 
for that child to achieve.
    Dr. Bertram. When I think of high school engineering, we 
are not training engineers. We are training critical thinkers, 
problem solvers, students who understand how to collaborate, 
work in a team environment. We are teaching computational 
thinking, these critical skills that are transferable really to 
any career, and I think to Ms. Ingram's point, is helping 
students understand how the world operates, the world in which 
they exist and which they have to compete.
    For instance, I was with an art director on an airplane, 
and she asked what I do, and I told her. She said, oh, you are 
one of those. And as we got into a discussion, soon after we 
reached 10,000 feet, she pulled out this huge Mac and started 
doing this amazing work. I just out of curiosity, who do you 
think developed that and how does that work?
    It provides tools, musical instruments are engineered to 
produce sound. Our students need to understand that, understand 
how their world operates, and I think it makes for a much 
better society overall.
    We have a number of students that will go in different 
career paths, but we believe that those students will be in a 
much better position to contribute to our country.
    Dr. Smith. I just emphasize some of the comments that have 
already been made. Science, technology, engineering, math all 
provide the foundation of critical thinking. It provides you 
the structure by which you solve problems. That is a 
transferable skill, and we see that when engineers go off into 
other professions. It is very rare that you have someone that 
comes from a different major and comes into engineering and 
technology. That seems to be a one-way path for people in terms 
of their careers. So I think that highlights why those skills 
are so valuable on a broad scale basis.
    The second point I would make is one that we live in a 
technological world. Whether we like that or not, the idea of 
an agrarian-based society is gone, and we are all surrounded by 
technologies, and unless there is a clear understanding of how 
those technologies work and how they are beneficial or how they 
can actually be dangerous, I think we have a real risk of 
having a competitiveness problem worldwide.
    Ms. Esque. I would like to quote a 15 year old, if I may. 
Jack Andraka mentioned after he won the ISEF last year that 
within three seconds he can find the answer to just about any 
common piece of knowledge on the Internet. What is important is 
what does he do with that answer. What are the critical 
thinking skills? What questions is he asking? What problems am 
I trying to solve?
    And he was urging the audience at that time to move away 
from memorization and get to exactly what we have all been 
talking about, the actual application in real-world situations 
to solve problems, and that is how we inspire young people to 
stay with STEM.
    Ms. Esty. Thank you very much.
    Chairman Bucshon. All right. Well, I would like to thank 
all the witnesses for their valuable and very fascinating 
testimony. Thank you for the thoughtfulness that you put behind 
your testimony, all of you. And for the Members for their 
questions.
    The Members of the Committee may have additional questions 
for you, and we will ask you to respond to those in writing. 
The record will remain open for two weeks for additional 
comments to written questions from Members.
    At this point the witnesses are excused, and the hearing is 
adjourned. Thank you, everyone.
    [Whereupon, at 11:43 a.m., the Subcommittee was adjourned.]
                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 <all>

</pre></body></html>
